I/2S/& I

No,

Supreme Court, U.S.
FILED

' U £C

JAN 2 5 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

ARTAVIS DESMOND MCGOWAN,
Petitioner;
v.

UNITED STATES OF AMERICA,
Respondent.

Oil Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit
PETITION FOR WRIT OF CERTIORARI

ARTAVIS DESMOND MCGOWAN
Reg. No. 29878-001
FCI TALLADEGA

RECEIVED

FEDERAL CORRECTION
INSTITUTION

MAR 2 3 2021
lyEggMEfCOURCtLFiRcK

TALLADEGA, AL 35100

x [“received
I MAY 1 1 2021

LSyPREMi^cgl&LERK
(

RECEIVED
JAN 2 8 2021
9r,gglM0^5^5BsK

QUESTIONS PRESENTED

I.

WHETHER THE DISTRICT COURT ERR IN DENYING
McGOWAN’S MOTION
FOR NEW TRIAL BASED ON CONSTRUCTIVE AMENDMENT OF
THE INDICTMENT WHEN IT ALLOWED THE GOVERNMENT TO
INTRODUCE WIRETAP EVIDENCE FROM A 2013 HEROIN
TRANSACTION, BETWEEN McGOWAN AND ONE OF HIS
COCONSPIRATORS, 18 MONTHS AFTER THE CONCLUDING
DATE OF THE INDICTMENT ON OCTOBER 5, 2011?..............

II.

WHETHER McGOWAN IS ENTITLED TO RELIEF FROM HIS 280
MONTH SENTENCE BECAUSE SECTION 401 OF THE FIRST STEP
ACT, ENACTED ON DECEMBER 21, 2018, REDUCED THE
MANDATORY MINIMUM PENALTY UNDER SECTION
841(B)(1)(A) FROM 20 YEARS TO 15 YEARS FOR OFFENDERS
WITH ONE PRIOR QUALIFYING DRUG CONVICTION?..........

2

LIST OF PARTIES
All parties appear in lire caption of the case on the cover page.

Lr

3

J

'
%

TABLE OF CONTENTS
QUESTION PRESENTED

2

TABLE OF
AUTHORITIES................

5-6

JURISDICTION

,6

OPINIONS BELOW

6

CONTITUTIONAL ISSUE

6-7

SUMMARY OF ARGUMENT

9-10

STATEMENT OF CASE

7-9

ARGUMENT

I.

THE DISTRICT COURT ERRED IN DENYING McGOWAN’S
MOTION FOR NEW TRIAL BASED ON CONSTRUCTIVE
AMENDMENT OF THE INDICTMENT WHEN IT ALLOWED THE
GOVERNMENT TO INTRODUCE WIRETAP EVIDENCE FROM A
2013 HEROIN TRANSACTION, BETWEEN McGOWAN AND ONE
OF HIS COCONSPIRATORS, 18 MONTHS AFTER THE
CONCLUDING DATE OF THE INDICTMENT ON OCTOBER 5,
2011
10

II.

McGOWAN IS ENTITLED TO RELIEF FROM HIS 280 MONTH
SENTENCE BECAUSE SECTION 401 OF THE FIRST STEP ACT,
ENACTED ON DECEMBER 21,2018, REDUCED THE
MANDATORY MINIMUM PENALTY UNDER SECTION
841(B)(1)(A) FROM 20 YEARS TO 15 YEARS FOR OFFENDERS
WITH ONE PRIOR QUALIFYING DRUG CONVICTION......15

CONCLUSION

19

CERTIFICATE OF SERVICES

20
4

TABLE OF AUTHORITIES
CASES
Allen v. Hardy, 478 U.S. 255 (1986)....................................................

16

Deschamps v. United States, 570 U.S. 254 (2013)...............................

17

Griffith v. Kentucky, 479 U.S. 314 (1987)............................................

16

Hicks v. United States, 137 S. Ct. 2000, 2001 (2017)...........................

10,19

Markowitz v. Ne. Land Co., 906F.2d 100 (3d Cir. 1990)....................

17

Mathis v. United States, 136 S. Ct. 2243 (2016)...................................

17

Reese v. United States, 2018 WL 3495085 (M.D. Ala. Nov. 15,2018)

18

Rosales-Mirales v. United States, 138 S. Ct. 1897 (2018)....................

19

Russell v. United States, 429 F.2d 237 <5th Cir. 1970)...........................

13

Stirone v. United States, 361 U.S. 2*12, 80 S. Ct. 270, 4 L.Ed.2d 252 (1960).......9
Teague v. Lane, 489 U.S. 288 (1989)..........................................

16

United States v. Artrip, 942 F.2d 1568 (11th Cir.1991)............

13

United States v. Dixon, 648 F.3d 195 (3rd Cir. 2011).................

16

United States v. Flynt, 15 F.3d 1002,1005 (11th Cir. 1994).......

10

United States v. Keller, 916 F .2d 628 (llthCir. 1990)................

10

United States v. McKie, 112 F.3d 626 (3rd Cir. 1997)................

17

United States v. Neal, 520 Fed. App’x 794, 795 (11th Cir. 2013)

17

United States v. Peel, 837 F.2d 975 (11th Cir. 1988)...................

9,15

United States v. Phalo, 283 Fed. Appx. 757 (11th Cir. 2008).....

11

United States v. Pope, 132 F.3d 684 (11th Cir.1998)...................

13

United States v. Rodriguez, 398 F.3d 1291 (11th Cir. 2005).......

18

United States v. Sharpe, 438 F.3d 1257 (11th Cir.2006).............

10

5

United States v. Shelton, 400 F.3d 1325 (11th Cir. 2005)

18

United States v. Turner, 474 F.3d 1265 (11th Cir. 2007).

17

PETITION FOR WRIT OF CERTIORARI
ARTAVIS DESMOND MCGOWAN respectfully petitions for a writ of certiorari
to review the judgment of the United States Court of Appeals far the Eleventh
Circuit.

OPINIONS BELOW
The panel opinion of the Court of Appeals is unpublished and included in
Petitioner’s Appendix (Pet. App.) at A. The opinion of the district court’s denial is
unpublished and is included in Pet. App. at B. Finally, Petitioner’s request for
petition for panel rehearing was denied on September 1st, 2020, and is included in
Pet. App. At C.

JURISDICTION
On March 19, 2020, this Court entered an order automatically extending the time
to file any petition for certiorari due on or after that day to 150 days from the date
of the lower court judgment, order denying discretionary review, or order denying
a timely petition for rehearing. The effect of that order was to extend the deadline
for filing a petition for certiorari to January 29, 2021. This Court has jurisdiction
under 28 U.S.C. § 1254(1).

CONSTITUTIONAL AND STATUTORY PROVISIONS AT
ISSUE
The Fifth Amendment (1791) establishes the requirement that a trial for a
major crime may commence only after an indictment has been handed down by
a grand jury; protects individuals from double jeopardy, being tried and put in
6

danger of being punished more than once for the same criminal act; prohibits
punishment without due process of law, thus protecting individuals from being
imprisoned without fair procedures; and provides that an accused person may not
be compelled to reveal to the police, prosecutor, judge, or jury any information that
might incriminate or be used against him or her in a court of law.
The Sixth Amendment (1791) provides several protections and rights to an
individual accused of a crime. The accused has the right to a fair and speedy trial
by a local and impartial jury. Likewise, a person has the right to a public trial. This
right protects defendants from secret proceedings that might encourage abuse of
the justice system, and serves to keep the public informed. This amendment also
guarantees a right to legal counsel if accused of a crime, guarantees that the
accused may require witnesses to attend the trial and testify in the presence of the
accused, and guarantees the accused a right to know the charges against them.

STATEMENT OF THE CASE
A federal grand jury charged McGowan with, among other things, conspiracy to
distribute and possess with intent to distribute 5 kilograms or more of cocaine
hydrochloride, in violation of 21 U.S.C. §§ 846, 841(a)(1), (b)(1)(A) (Count One).
Count One alleged that McGowan participated in the conspiracy "[fjrom in or
about August 2011 to on or about October 5,2011. McGowan pled not guilty. The
government filed an information under § 851 notifying McGowan that it would
seek an enhanced penalty based on a prior conviction—namely, his 1998 Alabama
conviction for unlawful possession of cocaine. The information explained that
because McGowan had a prior conviction for a felony drug offense, he faced a 20year mandatory minimum sentence under § 841(a)(1) and (b)(l)(A).The First Step
Act of 2018 reduced the mandatory minimum penalty under 21 U.S.C. §
841(b)(1)(A) for felony drug offenders with one prior qualifying drug offense from
20 years to 15 years. See Pub. L. No. 115-391 § 401(a)(2), 132 Stat. 5194, 5220.
A probation officer prepared a presentence investigation report ("PSR"). The PSR
calculated a total offense level of 40 and a criminal history category of I, which
resulted in a range of 292 to 365 months' imprisonment under the Sentencing
Guidelines. The PSR noted that McGowan had a 1998 Alabama conviction for
unlawful possession of cocaine, which was the basis for the government's § 851
information. Thus, McGowan's mandatory minimum term of imprisonment was 20
7

years. McGowan objected to the PSR's determination that his Alabama conviction
supported the government's § 851 information because the government had
provided no documentation showing that he had waived or was afforded
prosecution by indictment during his state criminal proceedings.
The district court sentenced McGowan to 280 months' imprisonment.
FACTS RELATING TO THE CONSTRUCTIVE AMENDMENT OR
MATERIAL VARIANCE OF THE INDICTMENT.
Count One of the indictment charges Mr. McGowan with conspiracy to distribute
and to possess with the intent to distribute five kilograms or more of cocaine
hydrochloride, in violation of Title 21, United States Code, Sections 846, 841(a)(1)
and (b)( 1 )(A). The Government alleged that the conspiracy occurred from on or
about August 2011, and continued until on or about October 5,2011. [Doc. 23.]
During the trial, certain wiretaps were presented to the jury as evidence. The dates
for the recorded conversations were from March 2013 until April 2013. The
indictment alleged the offense dates as on or about August 2011 until October 5,
2011. The wiretaps were obtained around 18months after Mr. McGowan was
initially arrested for this offense.
In this case, Mr. McGowan was indicted for conspiracy to distribute and to possess
with the intent to distribute five kilograms or more of cocaine hydrochloride, in
violation of Title 21, United States Code, Sections 846, 841(a)(1) and (b)(1)(A).
The Government alleges that the conspiracy occurred from on or about August
2011, and continued until on or about October 5, 2011. [Doc. 23.] The government
presented evidence that an ongoing conspiracy was continued until April 2013.
During the trial, the Government conceded that the wiretaps discussed money for
heroin not cocaine hydrochloride. The admission of the wiretaps requires a new
trial because the evidence created a material variance in the admitted evidence and
the indictment.
The government could have gotten a superseding indictment which charged Mr.
McGowan with a conspiracy up to April 2013. The government failed to do so,
therefore any evidence dealing with the March-April 2013 dates should have been
excluded. Thus, the evidence presented at trial deviated from the indictment to the
point that Mr. McGowan could not fairly prepare for what was produced at trial.
The Government had the option to indict Mr. McGowan from August 2011 until
8

April 2013. They declined to do so. Because the Government failed to apprise Mr.
McGowan through the indictment of all the evidence which would be presented at
trial, Mr. McGowan was unfairly prejudiced by the material variance. Based on the
18-month discrepancy in the indictment and the evidence presented at trial, a new
trial is warranted. Furthermore, the wiretaps were prejudicial to the point that Mr.
McGowan could not have known he would have to defend against a conspiracy
which heroin during March 2013 until April 2013, based upon the language
included in the indictment.
THE FIRST STEP ACT OF 2018
Title IV of the First Step Act reduces certain enhanced mandatory minimum
penalties for some drug offenders. As it relates to 21 U.S.C. §§§ 841(b)(1)(A),
841(b)(1)(A) and 851, Section 401 of the First Step Act reduces the mandatory life
sentence for a third drug offense to a 25-year mandatory minimum, further reduces
the 20-year mandatory minimum for a second drug offense under 21 U.S.C. §§
841/851 to a 15-year mandatory minimum. The First Step Act also changes the law
so that the sentence going forward will apply to people who have one prior
conviction for a "felony drug offense" or a "serious violent felony. However, these
provisions are not retroactive, rather these changes in the law apply only to
sentences going forward (after December 21,2018) for people who have one or
more prior convictions for a "felony drug offense" or a "serious violent felony".
McGowan argues that the Court should grant his Motion due to his unusually long
sentence and a subsequent change to the law that would subject him to a lower
mandatory minimum sentence. He argues that the First Step Act’s changes to 21
U.S.C. § 841(b) altered the sentencing enhancement for having a prior felony
conviction from a 20-year mandatory minimum to a 15-year mandatory minimum

SUMMARY OF ARGUMENT
A. Under Stirone v. United States, 361 U.S. 212,218, 80 S. Ct. 270,274,4
L.Ed.2d 252, 257 (1960) and United States v. Peel, 837 F.2d 975, 977-978
(11th Cir. 1988), a Court is required to find that the prosecutor improperly
broadened the indictment beyond that returned by the grand j ury against Mr.
McGowan by presenting recorded conversations from wiretaps that occurred
9

in 2013 to the jury as evidence. These wiretaps occurred over 18 months
after Mr. McGowan was initially arrested. That undisputable broadening of
the indictment violated Mr. McGowan’s Fifth Amendment right to be tried
only on a charge returned by a grand jury. A broadening of an indictment by
a prosecutor at trial by proof of acts beyond those charged in the indictment
and by argument of such facts in satisfaction of the government's burden of
proof as to an essential jurisdictional element of the offense, is per se
reversible.

B. Under Hicks v. United States, 137 S. Ct. 2000, 2001 (2017) ("wrongly
sentenced to a 20-year mandatory minimum sentence under a now-defunct
statute"), Mr. McGowan’s sentence is due to be vacated. Thus, this Court
should remand this matter back to the district court for resentencing
consistent with the First Step Act.

ARGUMENTS
*■"lC!

V
***

a, ir
<n
A»

THE DISTRICT COURT ERRED IN DENYING McGOWAN’S
MOTION FOR NEW TRIAL BASED ON CONSTRUCTIVE
AMENDMENT OF THE INDICTMENT WHEN IT ALLOWED THE
GOVERNMENT TO INTRODUCE WIRETAP EVIDENCE FROM A
2013 HEROIN TRANSACTION, BETWEEN McGOWAN AND ONE
OF HIS COCONSPIRATORS, 18 MONTHS AFTER THE
CONCLUDING DATE OF THE INDICTMENT ON OCTOBER 5,
2011

An indictment “must contain the elements of the offense intended to be charged
and sufficiently apprise the defendant of what he must be prepared to meet.”
United States v. Sharpe, 438 F.3d 1257,1263 (11th Cir.2006). A constructive
amendment to an indictment “occurs when the essential elements of the offense
contained in the indictment are altered to broaden the possible bases for conviction
beyond what is contained in the indictment.” United States v. Flynt, 15 F.3d 1002,
1005 (11th Cir. 1994); United States v. Keller, 916 F.2d 628, 634 (11th Cir. 1990).
When applying the relevant and applicable case law to the 2013 Wiretap Evidence
admitted in the present case, it is clear that a constructive amendment to the
indictment occurred. In an attempt to justify its improper use of the 2013 Wiretap
10

Evidence, the government cited the 2008 case of United States v. Phalo, 283 Fed.
Appx. 757 {11th Cir. 2008), as its only example of an instance of when the court
allowed evidence of conduct occurring after the return of the indictment as
substantive proof at trial. However, not only is Phalo, highly distinguishable from
the present case, but authority cited by the Court therein does significantly more to
support Mr. McGowan’s contention that the indictment was in fact constructively
amended than it does the Government’s contention that it was not.
In Phalo the Court reasoned that a drug transaction that took place one day after the
return of the indictment arose out of the same transaction constituting the conduct
charged in the indictment, and was inextricably intertwined with the substantive
offense, and therefore admissible as substantive evidence against one of the
defendants at trial. It is evident from the context and timing of the events in the
Phalo case, that the time period of the conduct alleged in the indictment, the timing
of the return of the indictment, and the conduct occurring one day after the
indictment’s return, all occurred in a very condensed temporal frame. Hence the
Court’s finding that the post-indictment conduct and the charged conduct arose
from the same transaction and were essentially one in the same. These facts are
different from the facts in the present case and no credible comparison can be
made. The most obvious distinction to note between Phalo and the present case is
the timing of the post indictment conduct. The conduct at issue in Phalo took place
only one day after the return of the indictment, whereas the conduct (and evidence)
at issue in Mr. McGowan’s case occurred a minimum of sixteen months after the
return of the indictment and 18 months after his initial arrest.
When considering the nominal temporal difference between the charged conduct of
the indictment and the post-indictment conduct of Phalo, it is easily understood
how the Court may find the post-indictment conduct admissible as substantive
evidence of the alleged conspiracy. However, when considering the nearly twoyear time lapse between the indictment period and the post indictment conduct in
the present case, there is no comparison. No reasonable argument can be made that
the post-indictment conduct admitted against Mr. McGowan arose from the same
transaction that constituted the charged conduct of the indictment. This contention
is supported by the fact that the Government asserted no evidence of any similar
conduct in the 18 month period from Mr. McGowan’s arrest to the dates of the
2013 Wiretap Evidence; and by the facts (discussed in more detail below) that the
District Court was placed on notice, on the record, that the purported subject matter
of the wiretaps was not the same as that of the charged conduct, and additionally
by the fact that the District Court made a ruling that the subject matters were not
inextricably intertwined. Indeed, during the course of trial, the District Court made
an explicit ruling on the record that the subject narcotics of the conspiracy as
ii

alleged in the indictment, i.e., cocaine hydrochloride and any derivative thereof;
and the purported subject matter of the 2013 Wiretap Evidence, i.e., heroin, were
not inextricably intertwined for evidentiary purposes of trial.
To be sure, the court held that any witness or counsel thereto, would not speak the
word “heroin,” or make any reference in the presence of the jury. Notwithstanding
these facts, however, the 2013 Wiretap Evidence was admitted for substantive use.
This is distinguishable from the Court’s reasoning in Phalo. In Phalo the subject
narcotic for both the charged conduct of the indictment, and the post-indictment
conduct was cocaine, or its derivative, crack cocaine. As best determined from the
text of the case, there was never any other narcotic involved or discussed, either in
the indictment or during trial. There exists nothing in the text of the case to suggest
that the District Court had to evaluate whether the charged conduct and the post­
indictment conduct were inextricably intertwined or whether the issue was even
raised at foe trial level at all. Because of this, and foe fact that foe conduct occurred
only one day after foe return of the indictment, the potential for unfair prejudice to
the defendant from foe admission of the evidence in Phalo was minimal.
Conversely, where the District Court made a definitive ruling that the subject
matters of the charged conduct and that of the post-indictment conduct were not
inextricably intertwined, to the extent that it prohibited any reference to the latter,
the potential of unfair and undue prejudice to the Defendant upon admission of
such evidence is imminent and inevitable. It is important to note that the Court in
Phalo reasoned that foe post-indictment conduct arose from the same transaction,
as did the charged conduct. Without a need for any detailed explanation, it is
clearly safe to say that this is absolutely not the ease with Mr. McGowan. The
indictment in foe present case charged Mr. McGowan with conspiracy to possess
with intent to distribute cocaine hydrochloride from “on or about” August 2011 to
“on or about” October 2011. This indictment was returned in November of 2011.
The 2013 Wiretap conversations, however, occurred in March and/or April of
2013, approximately 16 months after the return of foe indictment. The Government
presented no evidence of any other direct involvement of the Defendant in any
illegal activity occurring between the time of the indictment’s return and the 2013
wiretaps, and thus cannot j ustify any argument that foe conduct arose from the
same transaction as the charged conduct of the indictment. Therefore, taking the
Courts analysis and reasoning in Phalo and applying it to the present case, the
Government’s 2013 wiretap evidence fails the test for admissibility as substantive
evidence. The Russell Requirement of ‘Anteriority’ as Restated in Phalo.
Additionally, Phalo reasserts the Courts’ bright line rule against the broadening of
the terms of an indictment, and goes further to clarify how post-indictment
12

evidence can still constructively amend an indictment, even as it relates to a nonessential element of the charge. Phalo at 761. Phalo states in no uncertain terms
that although “time is not an essential element of an offense as long as the
government establishes that the conduct occurred reasonably near the date that the
indictment mentions, United States v. Pope, 132 F.3d 684,688-89 (11th Cir.1998),
this applies only to proof of any date before the return of the indictment and within
the statute of limitations. Russell v. United States, 429 F.2d 237, 238 (5th
Cir.1970).” Phalo at 761 [emphasis added]. “[AJfter an indictment has been
returned; its charges may not be broadened through amendment except by the
ip-and jury itself.” United States v. Artrip, 942 F.2d 1568,1570 (11 th Cir.1991)
(quotation marks omitted). “Conviction on the basis of a modification of an
essential element not charged by the grand jury constitutes reversible error.”
(reversing conviction where government presented evidence that enlarged the
charges in the indictment). Phalo supra, Artrip at 1570. See also Russell supra. It is
clear that Phalo is stating that the broadening of non-essential elements of the
indictment do in fact constitute a constructive amendment when it involves proof ^
^
after the return of the indictment/Phalo implies that the admission of proof beyond-^ A 0^*
an indictment’s return will cause the time period of the charged offense to become
an essential element for the purpose of a constructive amendment analysis, where it
bS 4^
otherwise would not be^j Phalo restates the exact evidentiary rule that the district
^N ^
court must apply in the present case. As it relates to only the temporal aspect of the •
2013 Wiretap evidence, the evidence presented at trial was so posterior to the
4'
’
return of the indictment that it was inherently prejudicial and violative of Mr.
McGowans’s Fifth Amendment right, and thus should not have been admitted.
What Phalo does is clearly articulate that a constructive amendment occurs, even
as it relates to non-essential elements of the indictment, when evidence of conduct
subsequent to the return of the indictment is admitted at trial. Consequently, when
the Government introduced the 2013 Wiretap Evidence as substantive proof at
trial, it in effect caused the time of the offense of the charged conspiracy to be
made an essential element of the indictment; and because the evidence in question
occurred a full 16 months after the return of the indictment, it constructively
amended, and broadened, the indictment to Mr. McGowan’s detriment. The
rationale for such a rule is easy to understand in that if the Government is not
temporally restrained to the date of the return of the indictment, then they may in
essence charge, and indict, a defendant with a criminal offense for which the
Government has little or no evidence, and then retroactively build a case against
him by lying in wait for the defendant to engage in conduct that can be construed
as consistent with their allegations. Furthermore, when the Government is allowed
to arbitrarily use evidence occurring after the return of the indictment, without

seeking a superseding indictment or some other formal and permissible
amendment to the charging instrument, then the likelihood that the evidence in
question is unfairly prejudicial to the defendant increases, as the defendant was
likely not fairly appraised of the conduct to be used as evidence against him; and
the probative value of such evidence substantially decreases, since it is temporally
removed from the charged conduct contained in the indictment. This is especially
true when considering post-indictment periods of significant duration as in the
present case. Contrary to what the Government attempts to assert in its response,
the Eleventh Circuit makes no exception, concession, or distinction for cases for
which some of the evidence falls within the timeframe of the indictment and other
evidence does not. The rule established by Russell and reemphasized in Phalo is
clear that such posterior evidence, when admitted at trial, does impermissibly
broaden and amend the terms of the indictment in violation of Mr. McGowan’s
Constitutional Rights, and is therefore per se reversible error.

The Government Violated Mr. McGowan’s Fifth Amendment Indictment Right in
Violation of Stirone. The prosecution’s use of the 2013 Wiretap Evidence violated
Mr. McGowan’s right to be tried on the indictment brought against him by the
grand jury. Stirone v. United States, 80 S. Ct. 270, 361 U.S. 212,4 L.Ed.2d 252
(1960). In Stirone the offense proved at trial was not fully contained in the
indictment, for trial evidence had "amended” the indictment by broadening the
possible bases for conviction from that which appeared in the indictment. As the
Stirone Court said, the issue was "whether {Stirone] was convicted of an offense
not charged in the indictment." 361 U.S., at 213, 80 S.Ct., at 271. Stirone, a union
official, was indicted for and convicted of unlawfully interfering with interstate
commerce in violation of the Hobbs Act. 18 U.S.C. § 1951. More specifically, the
indictment charged that he had engaged in extortion that obstructed shipments of
sand from outside Pennsylvania into that State, where it was to be used in the
construction of a steel mill. At trial, however, the prosecution's proof of the
required interference with interstate commerce went beyond the allegation of
obstructed sand shipments. The prosecutor also attempted to prove that Stirone had
obstructed the steel mill's eventual export of steel to surrounding states. Because
the conviction might have been based on the evidence of obstructed steel exports,
an element of an offense not alleged in the indictment, a unanimous Supreme
Court held that the indictment had been unconstitutionally "broadened:" The right
to have the grand jury make the charge on its own judgment is a substantial right
which cannot be taken away with or without court amendment. Here,... we cannot
- 14

know whether the grand jury would have included in its indictment a charge that
commerce in steel from a nonexistent steel mill had been interfered with. Yet
because of the court's admission of evidence and under its charge this might have
been the basis upon which the trial j ury convicted petitioner. If so, he was
convicted on a charge the grand jury never made against him. This was fatal error.
<361 U.S., at 218-219, 80 S. Ct., at 273-274).
Under Stirone and United States v. Peel, 837 F.2d 975,977-978 (11th Cir. 1988),
the District Court is required to find that the prosecutor improperly broadened the
indictment beyond that returned by the grand jury against Mr. McGowan, that that
broadening of the indictment violated Mr. McGowan’s Fifth Amendment right to
be tried only on a charge returned by a grand jury, and that the error in this case is
per se reversible. VJVow. ^'SCU5SlviJ^Pu.i«. pa.*4- 3T c/4iAVx\C
w-P '^*£'
4r»^H plus (Avlix '2/vsL
4^6
^ *s\U<k

n.

Uay

ui.rcUfi

toVilt

McGOWAN IS ENTITLED TO RELIEF FROM fflS 280 MONTH
SENTENCE BECAUSE SECTION 401 OF THE FIRST STEP ACT,
ENACTED ON DECEMBER 21, 2018, REDUCED THE
MANDATORY MINIMUM PENALTY UNDER SECTION
841(B)(1)(A) FROM 20 YEARS TO 15 YEARS FOR OFFENDERS
WITH ONE PRIOR QUALIFYING DRUG CONVICTION

The changes effective by the Act are significant to the case at hand. Mr. McGowan
faced a mandatory minimum sentence of240 months imprisonment pursuant to §
841(b)(1)(A) on account of the weight of cocaine involved in his charges due to
the fact that he had purported been previously convicted of one prior felony drug
offense. If sentenced now, Mr. McGowan would face significantly lower
mandatory minimums. First, Mr. McGowan’s sentence could not be enhanced due
to his previous conviction for unlawful possession of cocaine. The Act amended §
841(bXl)(A) to enhance sentences in situations where a defendant had been
previously convicted of a “serious drag felony,” not merely a “felony drag
offense.” First Step Act, Pub. L. No. 115-391,132 Stat. 5194 (2018). § 401
(a)(2XAXii) (amending 21 U.S.C. § 841(b)). Mr. McGowan’s prior possession
conviction wouldn’t have qualified under this amendment because he didn’t serve
more than 12 months imprisonment for this offense. Without this enhancement,
Mr. McGowan would have only been facing a mandatory minimum of 120 months.
15

Second, assuming arguendo that the possession would have qualified as a “serious
drug felony,” the Act would have amended lowered the mandatory minimum
sentence from 240 to 180 months. See First Step Act, § 401 (a)(2)(A)(ii). Under
these amendments, Mr. McGowan either facts a 25% or a 50% reduction in the
mandatory minimum sentence he faced. The Act plainly demonstrates that its
leniency should be afforded to defendants like Mr. McGowan whose case are not
yet final. These changes are expressly made retroactive by the Act, which states in
* ^
a retroactivity clause that the revisions “shall apply to any offense that was 7/^
rM6^\
committed before the date of enactment of this Act, if a sentence for the offense)
sc^
has not been imposed as of such date of enactment.” First Step Act § 401(c)
^ - t o\poSed
(emphasis added). The United States appears to be reading this final clause as a
determinative response to Mr. McGowan’s request. However, this reading isn’t °
»
appropriate. The United States asks this Court to read that final clause to preclude'*'***
application of the amends to my defendant who has been sentenced, but whose
^
*
conviction isn’t yet final because an appeal has been taken. This position, however, ^
'fy
is inconsistent with the Due Process concerns and constitutional authority
A,
regarding the application of new rules to cases pending direct appeal. Cf. Griffith
^
v. Kentucky, 479 U.S. 314, 328 (1987) (“We therefore hold that a new rule for the ^
^
conduct of criminal prosecutions is to be applied retroactively to all cases, state or cHJt
federal, pending on direct review or not yet final, with no exception for eases in
which the new rule constitutes a ‘clear break’ with the past.”); Teague v. Lane, 489 ?
U.S. 288,300 (1989) (“Retroactivity is properly heated as a threshold question,
for, once a new rule is applied to the defendant in the case announcing the rule,
evenhanded justice requires that it be applied retroactively to all who are similarly.
A more reasonable reading would prevent retroactive application of the statute to 0$* - ^>0^
those who would askrfor relief via collateral attack after their conviction and
*
sentence had become final, not those who have been sentenced in the district court, (Or
but whose sentences are not yet final because the appeal has not concluded. See
United States v. Dixon, 648 F.3d 195,199 (3rd Cir. 2011) (observing that a
judgement wasn’t final until there was a “final judgment in the highest court”
authorized to review the matter); see also Allen v. Hardy, 478 U.S. 255,258 (1986)
(describing “finality” of a case “where the judgment of conviction was rendered,
the availability of appeal exhausted, and the time for petition for certiorari had
elapsed”). The United States’ strict reading runs counter to the purpose of the Act
and Congress’ intent: to pass remedial legislation in order to reduce sentences to
which certain defendants - like Mr. McGowan— are exposed. Reading the
retroactivity clause to bar defendants such as Mr. McGowan from securing relief,
based on nothing more than the happenstance that their sentencing hearings
occurred before instead of shortly after the Act’s enactment, is flatly contrary to
that purpose, and indeed threatens the borders of (if not outright invades) the realm
16

of the absurd. See, e.g., Markowitz v. Ne. Land Co., 906 F.2d 100, 105 (3d Cir.
1990) (remedial legislation should be “liberally construed in favor of broad
coverage to effectuate its remedial purpose”); see also, e.g., United States v.
McKie, 112 F.3d 626, 63 (3rd Cir. 1997) (statutes should be construed “sensibly
and [so as to] avoid constructions which yield absurd or unjust results.”). The
amendments of the Act must apply in this case. This conclusion is the most
reasonable interpretation of the Act, given its purpose and intent. Accordingly, this
Court must recognize that the provisions of the Act must be given retroactive effect
to case pending direct appeal. Based on the foregoing, this Court must vacate Mr.
McGowan’s sentencing and remand the matter to the district court. B. Mr.
McGowan has demonstrated that the error in his sentence rises to the level of plain
error. Notwithstanding the foregoing, Mr. McGowan is still entitled to remand and
resentencing on the grounds that his sentence has been improperly enhanced. To
establish plain error, Mr. McGowan must show that there was (1) error, (2) that is
plain and (3) that affects substantial rights. See United States v. Turner, 474 F.3d
1265,1276 (11th Cir. 2007). If those three conditions are met, he must also show
that this Court should take notice of the error if it “seriously affects the fairness,
integrity, or public reputation ofjudicial proceedings.” Id. Mr. McGowan can meet
these burdens. First, there is error. As described in Mr. McGowan’s opening brief,
this Court must look to Mathis v. United States, 136 S. Ct. 2243 (2016) and
Deschamps v. United States, 570 U.S. 254 (2013) to consider whether Mr.
McGowan’s prior conviction fit within a categorical approach to federal
. <
sentencing. Appellant’s Brief, pg. 37-40. The district court did not apply this
Vk
approach. Like the United States on appeal, the district court simply applied 21*^^ Ai
vlAs
U.S.C. § 802(44) because it assumed a conviction for unlawful possession of ^
cocaine in Alabama fell within the definition of a “felony drug offense.” Gov.
^
Brief, pg. 25-27. Nevertheless, the analysis isn’t this simple. Mathis and
v*sA‘ * A or
Deschamps command sentencing courts to apply a categorical approach to
i*»^ '
determining whether a drug offense qualifies as a “felony drug offense” under §
802(44). Had die district court applied the proper analysis to the Alabama statute in
question, the district court would have concluded that the statute was indivisible
and broader than the conduct contemplated by § 802(44). As such, the district court
erred by concluding that a conviction under § 13A-12-212, Ala. Code 1975,
qualifies as a “felony drug offense” under § 802(44). The United States contends
that this Court’s prior precedent clearly holds that an Alabama conviction under §
13A-12-212 qualifies as a “felony drug offense” under § 802(44). See Gov. Brief,
pg. 26 (referencing United States v. Neal, 520 Fed. App’x 794, 795 (11th Cir.
2013) and United States v. Garrett, 292 Fed. App’x 3, 7 (11th Cir. 2008)). This
authority, however, pre-dates Mathis and Deschamps. Similarly, the United States
points to a district court’s rejection of this claim. See Gov. Brief, pg. 27, citing
17

Reese v. United States, 2018 WL 3495085 (M.D. Ala. Nov. 15,2018). Unlike Mr.
McGowan, the petitioner in that case failed to show how the Alabama statutes in
question were indivisible and overly-broad. Mr. McGowan met that burden here —
a showing the United States has not refuted. Second, this error is plain. That this
Court has yet to address this problem does not mean that the error isn’t plain on its
face. Deschamps and Mathis point to die conclusion that district courts are to take
categorical approach to § 802(44). That this conclusion is more apparent now at
the time of the appeal as opposed to at the time of sentencing does not make the
error “plain” for this Court’s analysis. See United States v. Shelton, 400 F.3d 1325,
1331 (11th Cir. 2005) {“{although the error was not ‘plain’ at the time of
sentencing, ‘where the law at the time of trial was settled and clearly contrary to
the law at the time of appeal—it is enough that the error be “plain” at the time of
appellate consideration.’”). Third, this error prejudiced Mr. McGowan. Under the
third-prong of a harmless error analysis, this Court asks whether an error
“affect[ed] substantial rights, which almost always requires that the error must
have affected the outcome of the district court proceedings.” United States v.
Rodriguez, 398 F.3d 1291, 1299 (11th Cir. 2005). At the time of sentencing, Mr.
McGowan faced only a 120-month mandatory minimum had he been sentencing
without the § 802(44) enhancement. This, of course, is a massive disparity in the
mandatory minimum applicable to a sentence. While the United States argues Mr.
McGowan cannot show prejudice because the district court ultimately sentenced
Mr. McGowan to 280 months, there is little reason to think the district court would
have still sentenced Mr. McGowan so harshly if the mandatory minimum in his
ease were significantly lower. Accordingly, Mr. McGowan has demonstrated the
requisite prejudice. Finally, under the fourth prong of a plain-error review, this
Court asks whether the error “seriously affectfed] the fairness, integrity or public
reputation ofjudicial proceedings.” Shelton, 400 F.3d 1325 at 1333. The answer to
this question is most certainly, yes. In Rosales-Mirales v. United States, 138 S. Ct.
1897 (2018), the United States Supreme Court held that the failure to correct a
plain error in a Sentencing Guidelines calculation will affect the “fairness, integrity
or public reputation of judicial proceedings.” Id. at 1911. The same reasoning
applies to the failure to correct a plain error concerning the erroneous application
of a sentencing enhancement under § 802(44). The error here was plain, prejudicial
and affects the “fairness, integrity or reputation” ofjudicial proceedings. As such,
this Court must vacate Mr. McGowan’s 280-month sentence and remand for
resentencing.
A plain legal error infects this judgment—a man was wrongly sentenced to 20
years in prison under a defunct statute. No doubt, too, there's a reasonable
probability that cleansing this error will yield a different outcome. Of course, Mr.
18

•i-

I

McGowan’s conviction won't be undone, but the sentencing component of the
district court's judgment is likely to change, and change substantially. For
experience surely teaches that a defendant entitled to a sentence consistent with 18
U.S.C. § 3553(a)'s parsimony provision, rather than pursuant to the rigors of a
statutory mandatory minimum, will often receive a much lower sentence. So, there
can be little doubt Mr. McGowan’s substantial rights are, indeed, implicated.
Cf. Molina-Martinez v. United States, 578 U.S.
. 136 S.Ct. 1338. 194
L.Ed.2d 444 (2016). When it comes to the fourth prong of plain error re view, it's
clear Mr. McGowan also enjoys a reasonable probability of success. See, Hicks v.
United States, 13 7 S. Ct. 2000 <2017).

CONCLUSION
Thepetitionforwrit'ofcertiorari should begranted.

Respectfully submitted,
ARTAVIS DESMOND MCGOWAN, pro-se
DATED: January 23rd, 2021

Iff

